IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

COMMONWEALTH OF PENNSYLVANIA,

No. 23 MAL 2021

Respondent
Petition for Allowance of Appeal
from the Order of the Superior Court
v.

PETER JAMES SOROKAPUT,
Petitioner

ORDER

PER CURIAM
AND NOW, this 21st day of April, 2021, the Petition for Allowance of Appeal is
DENIED.

J-A16029-20

/

NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
COMMONWEALTH OF PENNSYLVANIA

IN THE SUPERIOR COURT
OF PENNSYLVANIA

Appellee
v.
PETER JAMES SOROKAPUT
Appellant

No. 54 MDA 2020

Appeal from the Judgment of Sentence Entered December 13, 2019
In the Court of Common Pleas of Schuylkill County
Criminal Division at No.: CP-54-CR-0000645-2019
BEFORE: PANELLA, P.J., STABILE, J., and MUSMANNO, J.
MEMORANDUM BY STABILE, J.:

FILED OCTOBER 14, 2020

Appellant, Peter James Sorokaput, appeals from the December 13, 2019
judgment of sentence entered in the Court of Common Pleas of Schuylkill
County ("trial court"), following his guilty plea to multiple charges of sexual
abuse against his daughters. Upon review, we affirm.
The facts and procedural history of this case are undisputed. Briefly, on
November 21, 2019, Appellant pleaded guilty to three counts of rape of a
child, two counts of aggravated indecent assault, two counts of incest of minor
under the age of 13 years, two counts of corruption of minors, two counts of
endangering the welfare of children, two counts of indecent assault, and four
counts of indecent exposure.1

On December 13, 2019, the trial court

1 18 Pa.C.S.A. §§ 3121(c), 3125(b), 4302(b)(1), 6301(a)(l)(ii), 4304(a)(1),
3126(a)(7), and 3127(a), respectively.

J-A16029-20

sentenced Appellant to an aggregate term of 30 to 60 years' imprisonment.
Appellant did not file any post-sentence motion. Instead, he timely appealed.
The trial court directed Appellant to file a Pa.R.A.P. 1925(b) statement of
errors complained of on appeal. Appellant complied, raising a single assertion
of error whereby he challenged only the discretionary aspects of sentencing.
In response, the trial court issued a Pa.R.A.P. 1925(a) opinion.
On appeal, Appellant presents two issues for our review.
[I.] Did the sentencing court abuse its discretion in crafting a
manifestly excessive sentence after ordering the sentence on
multiple counts to run consecutively for an aggregate sentence of
not less than 30 to not more than 60 years incarceration?
[II.] Did the trial court's defective guilty plea colloquy, which failed
to inquire into whether [Appellant] was knowingly and intelligently
waiving his right to a jury trial, admitting guilt of his own free will,
and understood that the sentences on each charge could be run
consecutively, render [his] plea unknowing and involuntary in
character as to require the plea to be vacated and the matter
remanded for a new trial?
Appellant's Brief at 4.
At the outset, we note that we are unable to address Appellant's claims,
because, as the Commonwealth notes, he failed to preserve them for our
review. Appellant waived his first claim implicating the discretionary aspects
of sentencing. Our review of the record indicates that he failed to preserve
this claim for our review because he did not raise it before the trial court at
sentencing or in a post-sentence motion. See Pa.R.Crim.P. 720(A)(1); see
also Commonwealth v. Griffin, 65 A.3d 932, 935 (Pa. Super. 2013)
(holding objections to discretionary aspects of sentence are generally waived
- 2 -

J-A16029-20

if not raised at sentencing or preserved in a post-sentence motion).

In

Commonwealth v. Cartrette, 83 A.3d 1030 (Pa. Super. 2013), we explained
that "issues challenging the discretionary aspects of a sentence must be raised
in a post-sentence motion or by presenting the claim to the trial court during
the sentencing

proceedings.

Absent such efforts, an objection to a

discretionary aspect of a sentence is waived." Cartrette, 83 A.3d at 1042
(citation omitted).

Likewise, Appellant also waived his second issue

challenging the validity of his guilty plea because he failed to include it in his
Rule 1925(b) statement.

See Pa.R.A.P. 1925(b)(4)(vii) ("[ijssues not

included in the Statement and/or not raised in accordance with the provisions
of this paragraph (b)(4) are waived."). Accordingly, we affirm the judgment
of sentence.
Judgment of sentence affirmed.

Judgment Entered.

UE
Joseph D. Seletyn, Esfy
Prothonotary

Date: 10/14/2020

- 3 -

